                                     October 6, 1999




Jacob J. Lew, Director
Office of Management and Budget
Executive Office Building
725 17th Street, N.W.
Washington, D.C. 20503

Dear Mr. Lew:

        This letter is being issued in accordance with the requirements of the Federal
Activities Inventory Reform Act of 1998(FAIR Act). In light of the overall objective and
independent purpose and mission of this office as defined under the Inspector General
Act, I am of the opinion that all of the employees of the Office of the Inspector General
(OIG) occupy inherently governmental positions and thus are not subject to outsourcing.

        OMB Circular A-76 provides that the criminal investigative function and certain
other functions such as management and budgeting are inherently governmental. Further,
as stated in the circular, an inherently governmental function is a function, which is so
intimately related to the public interest as to mandate performance by Government
employees. In my estimation, the language from the circular coupled with the
overarching purpose of the OIG to prohibit and prevent fraud, waste and abuse within a
governmental entity clearly reflects the inherently governmental nature of this office.

       The specific activities of this office include the following:

                •   Administrative Investigations (investigation of senior personnel,
                    requests for inquiries by members of Congress, Hotline operations
                    etc.);
                •   Audit policy, planning quality assurance, management resolution and
                    oversight; and
                •   Inspection/program evaluation, policy, quality assurance, management
                    resolution and oversight.

        Notwithstanding the foregoing inherently governmental activities, this office has
outsourced over $400,000 for contract activities in support of its functions. Since its
establishment, this office has utilized contractor and consultant services to achieve its
Jacob J. Lew
October 6, 1999
Page 2

legislative goals. It is anticipated that this approach will continue in the future. Further,
because of the nature of the work of this office and its small size, any ability to expand
outsourcing will be limited.

        With respect to day to day functional support areas of supply and logistics,
personnel security and personnel support, this office relies on agency management and
thus follows agency practices for these activities.


                                                       Sincerely,


                                                       H. Walker Feaster, III
                                                       Inspector General


cc: David Childs
